Case: 21-15482, 04/15/2021, ID: 12076451, DktEntry: 4, Pag© 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

APR 15 2021
MOLLY C. DWYER, CLERK
. U.S. COURT OF APPEALS

ALFRED E. CARAFFA,

No.

Plaintiff-Appellant,

21-15482

D.C.No.
2:19-cv-05492-MTL-ESW
District of Arizona,
Phoenix

v.
TEMPE POLICE DEPARTMENT; et al.,

ORDER
Defendants-Appellees.
Before: CLIFTON, MURGUIA, and BRESS, Circuit Judges.
The district court terminated this action pursuant to appellant’s notice of
voluntary dismissal on April 23, 2020. This appeal challenges the magistrate
judge’s March 3, 2021 order denying appellant’s “motion to proceed to trial” in the
voluntarily dismissed action. A review of the record demonstrates that this court
lacks jurisdiction over this appeal because the March 3, 2021 magistrate judge
order is not an appealable final order. See 28 U.S.C. § 1291; In re San Vicente
Med. Partners Ltd., 865 F.2d 1128, 1131 (9th Cir. 1989) (order) (magistrate judge
order not final or appealable). Consequently, this appeal is dismissed for lack of
jurisdiction.
All pending motions are denied as moot.
DISMISSED.

DA/Pro Se

\

kJo

I

OC
C

n

/
Caraffa v. Tempe (AZ) Police Department, Slip Copy (2020)

*

' '

2020 WL 919168
Only the Westlaw citation is currently available.
United States District Court, D. Arizona.

remaining claims and Defendants without prejudice; and
^en^Ptamtfff "pending Motions.
“

o
0

Alfred E. CARAFFA, Plaintiff,
v.
TEMPE (AZ) POLICE DEPARTMENT, et al.,
Defendants.

I. Statutory Screening of In Forma Pauperis
Complaints
Pursuant to I?28 U.S.C. § 1915(e)(2), in a case in which
a plaintiff has been granted in forma pauperis status, the
Court shall dismiss the case “if the court determines that
... (B) the action ... (i) is frivolous or malicious; (ii) fails
to state a claim on which relief may be granted; or (iii)
seeks monetary relief against a defendant who is immune
from such relief.”

No. CV 19-05492-PHX-MTL (ESW)
Signed 02/25/2020

i .

Filed 02/26/2020

Attorneys and Law Firms

A pleading must contain a “short and plain statement of
the claim showing that the pleader is entitled to relief.”
Fed. R. Civ. P. 8(a)(2) (emphasis added). While Rule 8
Uoes not demand detailed factual allegations, “it demands
unadorned.
an
than
more
accusation.”
tKe^defendant-unlawKrily-harmed-me

Alfred E. Caraffa, Phoenix, AZ, pro se.

Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
“Threadbare recitals of the elements of a cause of action,
supported by mere conclusory statements, do not suffice.”
Id.
ORDER
Michael T. Liburdi, United States District Judge

f

*1 On October 24, 2019, Plaintiff Alfred E. Caraffa. who
was not detained when he filed his lawsuit, bu^ ismawris^
confined in a Maricopa Counf^TTaiirlile^a pro se civil
rights Complaint pursuant to t*42 U.S.C. § 1983 and an '
Application to Proceed In District Court without
Prepaying Fees or Costs. In a’December 16, 2019 Order,
the ~Court~ granted die Application to Proceed and
dismissed the Complaint because Plaintiff hadlailed to
state a claim. The Court gave Plaintiff 30 days to file an
amended complaint that cured the deficiencies identified
in the Order.
On February 14,2020, Plaintiff filed a Motion for Seizure
of Personal Property for Payment^ Under Default*
Judgment (Doc~9TITa~Motion for Default Judgment
pursuant to h*" Rules 55 and 55(d) of the Federal Rules of
Civil ProcedureVJocTlOj, ITMofiorTof Rjgh t to .Appear
"arfd^Appointmert^of^oungel (Doer lY), and a First
“Amended Complaint (Doc. 12). The CourtwwiirMor3er
~"^Defendant~Cjuajar5o to^ answer
Tive' of^he First~*Amend^d 'complaintT dismiss the

“[A] complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible
on its face.’ ” Id. (quoting f? Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). A claim is plausible<
“when the plaintiff pleads .factual conlehfthatlllows.the
court to draw the reasonable inference that the defendant
“iTTiable for the misconduct alleged.” Id. “Determining
whether'a complaint states a plausiBIecIaim for relief [is]
... a context-specific task that requires the reviewing court
to draw on its judicial experience and common sense.”
fPld. at 679. Thus, although a plaintiffs specific factual
allegations may be consistent with a constitutional claim,
a court must assess whether there are other “more likely
explanations” for a defendant’s conduct. I?Id. at 681.
But as the United States Court of Appeals for the Ninth
Circuit has instructed, courts must “continue to construe
pro se filings liberally,” If Hebbe v. Pliler, 627 F.3d 338,
‘342~(9th Cir. 2010). A “complaint [filed by a pro se
individual] ‘must be held to less stringent standards than
formal pleadings drafted by lawyers.’ ” Id. (quoting
fc® Erickson v. Pardns, 551 U.S. 89, 94 (2007) (per
curiam)).

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

\
Caraffa v. Tempe (AZ) Police Department, Slip Copy (2020)

II. First Amended Complaint
*2 In his six-countFirst Amended Complaint, Plaintiff
sues Defendants City of Tempe, the City of Tempe Police
Department, the City of Tempe Mayor and Chief of
Police, and City of Tempe Police Officer Guajardo. He
seeks monetary damages and the return of his trading card
collection.
In Count One, Plaintiff alleges he was subjected to
excessive, force when Defendant Guajardo “ran up behind,
[Plaintiff] and restramed.lhisl.ngnt arm.'Lwitnout stating,
he was al 1 police_pfficer,and detained [Plaintiff] against
hiswill.”
” ........ ..
'"
In Count Two, Plaintiff contends Defendant..Guajardo,
falsely arrested_him for disorderly conduct-fighting .while
Plaintiff was_ standmgTn*TEe sidewalk in front of a bar
and grill and.was.not.fighting with anyone “before the
officer ran up behind. [Plaintiff] and restrained [him] with
no grojblable cause to arrest [Plaintiff] for
jgntmg-qiso
Plaintiff alleges he was only
charged with disoMerP^onftuct-fighting, the arrest was
not supported by probable cause, and there was no
probable cause for any arrest. He asserts the prosecutor
subsequently dismissed the charge due to insufficient
evidence. Plaintiff contends Defendant Chief of Police “is
in charge of training” police officers and is responsible
“for being the Superior Officer of the Police Department.”
He also claims Defendant Mayor of Tempe is Defendant
Chief of Police’s “Superior.”
■“In Count Three, Plaintiff alleges he was falsely!
^knjmsoned when Defendant Guaiardo.arrested himjfot
disorderly conduct, handcuffed him, detained him, and
placed him in the County, Jail. Plamtiti asserts tne trial
'“court judge released him five days later and the
prosecutor ultimately dismissed the criminal charge due
to insufficient evidence"^"^*™*a^"“““
oum our;" PiamtiH"'cdritends"he was denied^due..
process because there was no probable cause. He claims
|rthe"c'nmrnal Charge wasdismissed because ot insufficient
evidence to prosecute. Plaintiff alleges this “clearly shows
that there is no pro[b]able cause for an arrest for
fighting-disorderly conduct [and] no pro[b]able cause for
any arrest to have been made or for handcuffing ... and
detaining [Plaintiff].”

^eizure.He claims there was no probable cause to detain^
s property was,illegally searc^eS^y1
or
officials” at defendant—Iemp.e Police Depaffment"*and
‘'illegal ilmlpounded byl’ Defendan^Temne Police
Department, for a oxu
s “under color of
^fawby [DefendMtJGuaiardo^and other officers unknown
''to [Plaintiff]” at Defendant Tempe Police Department,
un (leTthe autjmrj^ty^of^Defen&ant's^Mayor Imd/chief of
^oli^of DefendantjCity|oftTemp£^r
In Count Six, Plaintiff alleges, he was subjected Jo
retaliation. He contends that a few Pours™ betore
'Defendant Guajardo arrested_him, four Tempe Policg.
Officers stopped to check Plaintiffs identification,
detamed him, and told him thaTthey "didn't care about
anyjudgejjjs Tulingl;! you are not “To" "set~foot 'on
^MC/Chase Bank^propgrPT^PIamtiff^ also asserts"h&_
'donated a trading card to the Tempe Public,.
^MliseuWiCib'rSy^becausethe^playerlTad^di'^i^r.ernpe^,
Plaintiffatleges he “asked if they wanted to use_the,c_atdl
Jn the museum and .requeste_d that,his_nameibe displayed
as thedonor^fthecarcL Plaintiff contends a.woman at-the_
museum/library took_pictures_oC his, trading^ card.and,
another taxiing card. Plaintiff asserts he destroyed several
trading cardflrrth'e^fecleral'Tourthous’e—‘due^to^red spots.,
"‘tl^rfdmied'diftlje'back ofeach card’^-including-a trading^
card tlTaP^tiacTthe last name of Liburdi asoneof_the,
players.”

u

c.4iW

t

HI. Claims for Which an Answer Will be Required
*3 Liberally construed, Plaintiff has stated false arrest,
false imprisonment, and'illegal search and seizure claims,
_ against Defendant Guajardo in Counts Two, Three, and,
_Five. The Court'will“require'"Defendaht*“Guajardo to
answer these claims.

V*
NO

w

A. Defendant Tempe Police Department
Defendant Tempe Police Department is a subpart of the
City of Tempe, not a separate entity for purposes of suit.
P Gotbaum v. City^^hoen^6\ 7 F.'Supp. 2d 878, 886
(D. Ariz. 2008); see P Braillard, 232 P.3d at 1269

In Count Five, Plaintiff contends he was denied due
process because he was subjected to_an-illegal search and

(county sheriffs office is a.noniural entitvk see also
Vincente v. City of Prescott, 2012 WL 1438695 (D. Ariz.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

V

Caraffa v. Tempe (AZ) Police Department, Slip Copy (2020)

2012) (city fire department is a
f’P Wilson v. Yavapai Cnty., 2012 WL 1067959 (D. Ariz.
2012) (county sheriffs office and county attorney’s office
arenojyjgg^entities). Because DefendantTempePolice
Pe^^^^J^no^a^se^a^e^i^^tris^not capa^!^^
peim^jiepanifefi^uSfl^^ius^ne Court will dismiss
*CieKn3amT?^Freiice Department.
(

t § 1983 claim against a municipal defendant “cannoj
succeed as a matter of law!’ unless a plaintiff: (1) contends
that the municipal defendant maintains a policy orcusi^m
^perfmentto^Jke^piamtitt^^alieged^nju^^l^airui- (2) _ex£lain^
now such policy or custom caused the plaintiff s injury '

’STJoski v. Mosiey'’4'JTf.T(Tfiubri'oson'^Timr^ro^

(affirming dismissal of a municipal defendant pursuant to

jOicrr^AAi- Vfcb S+'Cr-T
LauJ
Jo

'"Fed. R. Civ. P. 12(b)(6)). Plaintiff has failed to allege
facts to support that the City of Tempe~mamkmea^
speali^^olicyorcuston^tKatTesuTTe^Mn^violationof
lPfaintitl:,,s~tecferaPg
ailed to
^plam^m^Lis^udurie^were^ause^b^anjyjy^gjoaU,.
B. Defendants Mayor and Chief of Police
policy or custom. Thus, the Court will dismiss without
To state a valid claim under
§ 1983, plaintiffs must -T^ ipjgbdice Defendant City of Tempe.
>
allege that they suffered a specific injury as a result of
specific conduct of a defendant and show an affirmative
link between the injury and the conduct of that defendant.
See
Rizzo v. Goode, 423 U.S. 362, 371-72, 377 (1976).

a Pc.rsoNi -In

m§

There is no respondeat superior liability under
1983,
and therefore, a defendant’s position as the supervisor of
persons who allegedly violated Plaintiffs constitutional
rights does not impose liability,
Monell v. Dep’t of
Soc. Servs. of New York, 436 U.S. 658 (1978);
P Hamilton v. Endell, 981 F.2d 1062, 1067 (9th Cir.
1992); VOiTaylorv. List, 880 F.2d 1040, 1045 (9th Cir.
1989). “Because vicarious liability is inapplicable to
Bivens and
§ 1983 suits, a plaintiff must plead that
each Government-official defendant, through the
official’s own individual actions, has violated the
Constitution.”

Iqbal, 556 U.S. at 676.

Plaintiff has not alleged that Defendants Mayor and Chief
of Police personally participated in a depnyation_Qf.
Plaintiffs _constitutional_nghlg, were aware_of_a_
deprivation and failed to act, or formed policies that
resuliecf"Th plaintiffs injuries. IhuS, th£" court will
dismiss without prejudice Defendant Mayor and Chief of
Police.

vCVvU? of
^ r^LS^» her

Vv AO t> w

»*

A~ municipality may notpesuea solely^because^an jnjury
Long v.
was inflicted by its employees or agents.
County of Los Angeles, 442 F.3d 117871185 (9th Cir.
2006). The actions of individuals may support municipal
liability only if the employees wereactmg pursujmfloJan
official policy or custom of the municipality. I? Botello
v. Gammick, 413~F.3cTl>71, 978-79_(9th Ctr. 2005). A

Ao rcsVre.lMf
rrti

D. Count One
*4 The use of excessive force by police officers in the
course of an an^sTTan^vtoIateTlie^r^stee^sTo^rt^
^men^meAffl^Hi'i^ ^'e free iron7 unreasonable seizures^
See II White by White v. Pierce County, 797 F.2d 812,
816 (9th Cir. 1986). The Fourth Amendment does not
prohjbittheuseofreasmj^J^jglSP*
Tatum v. City &
County of San Francisco, 441 F.3d 1090, 1095 (9th Cir.
2006). Whether the force was excessive depends on
“whether the officers’ actions [were] ‘objectively
reasonable’ in light of the facts and circumstances
confronting them, without regard to their underlying
intent or motivation.” F* Graham v. Connor, 490 U.S.
Tatum, 441 F.3d at 1095; C.Lolli v.
386, 397 (1989);
County of Orange, 351 F.3d410,415 (9th Cir. 2003). The
Court must balance the nature and quality of the intrusion
against the countervailing governmental interests at stake.
Graham, 490 U.S. at 396; f *Lolli, 351 F.3d at 415.
Moreover,
[t]he “reasonableness” of a particular use of force must
be judged from the perspective of a reasonable officer
on the scene, rather than with the 20/20 vision of
hindsight..... “Not every push or shove, even if it may
later seem unnecessary in the peace of a judge’s
chambers,” violates the Fourth Amendment.
Graham, 490 U.S. at 396 (citations omitted). “Whether
a particular use of force was ‘objectively reasonable’
depends on several factors, including the severity of the
crime that prompted the use of force, the threat posed by a
suspect to the police or to others, and whether the suspect
was resisting arrest.” It® Tatum, 441 F.3d at 1095.

WSSTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

-/

Caraffa v. Tempe (AZ) Police Department, Slip Copy (2020)

D
\
A. Motion for Default Judgment
In his Motion for Default Judgment, Plaintiff claims he is
entitled to a default judgment, states he no longer has
copies of “legal documents with the civil case nos. on
them,” and lists evid^cehetrhelievesJ‘wilUsatisfi[ ly.the.
Court to.bring a default" judgment against the lU-nijejcf*
“States! I ilts ofticers_[.aj cies.

Plaintiff contends Defendant Guajardo “ran up behind
[Plaintiff] and restrained [his] right arm.” This is not
excessive force. Thus, the Court will dismiss without
prejudice Count One.

*5 First, & Federal^Rules |^of Civil Procedui^ 55(d),,
which..statesr.that_a_^d,efault_judgment may be entered
against the .United .States, its officers, oyts agenciesLonlv^,
**]f th^^lmmant^establjshes^^^lam^^ngnMojielie^^
^evidence that satisfies foe-court^is inap^licable^became^
1he United States, its officers, or its agencies are not
parties to this lawsuitTSTecon an entry offle1aultris oni^
appropriate “fwjhen a party against whom a judgment for
affirmative relief is sought has failed to plead or
otherwise defend.”
Fed. R. Civ. P. 55(a). Defendants
have not been served with the Complaint or First
Amended Complaint and, therefore, were not required to
file a response. See f?Fed. R. Civ. P. 12(a). Thus, the
Court will deny Plaintiff’s Motion for Default Judgment.

E. Count Four
In Count Four, Plaintiff contends he was denied due
process because there was no probable cause. An alleged
search or arrest ana detention without probable cause does
not constitute a violation of the arrestee’s substantive due
process rights; Jhe constitutional right violated, if any,
would be the Eourth Amendment freedom from search
am^eizure^ tAlbright v. Oliver, 510 U.S. 266, 271-74
*
(1994). See I?1 Crown Point Dev., Inc. v. City of Sun
Valley, 506 F.3d 851, 855 (9th Cir. 2007) (“[I]f a
constitutional claim is covered by a specific constitutional
provision, such as the Fourth or Eighth Amendment, the
claim must be analyzed under the standard appropriate to
that specific provision,, not under tSeruEnc of substantive"
due process.” (quoting E.:. County of Sacramento v.
ms. 833, 843 (1998))). Thus, the Court will
dismiss without prejudice Count Four.

-Vo

Co^C.

B. Motion for Seizure of Personal Property
Plaintiff requests the Court seize all of Defendant
Guajardo’s personal property “as the civil action is in
default judgment.” Defendant Guajardo is not in default
and no default judgment has been entered. Thus, the
Court will deny Plaintiffs Motion for Seizure of
Property.

F. Count Six
To state a claim for First Amendment retaliation against a
governmer^official, a plaintiff must prove “(1) he .,
engaged, in constitutionally' protecte5'*^!wi^';"(2)1^ as a_
result, he was subjected tc^fayerse"11 action by the
defendant4Kat^ould^chill^pers^^t’^rdiha~ry<'firmness ^
.from continuing to engage.ifTthe^protected activity; and__
constitutionally protected activity and the adverse action.’^
. Blair v. Bethel Sch. Dist., 608 F.3d 540, 543 (9th Cir.
2010) (footnote omitted). Plaintiff does not allege any
facts to support a conclusion that he was retaliated against
because he engaged in constitutionally protected activity.
TT^s, the Court will di^npss without prejudice Count Six.

.

C. Motion for Right to Appear and Appointment of
Counsel
Plaintiff requests to be present at a hearing on the motion
for default judgment and requests the appointment of
counsel because he is indigent.

1. Request to Appear at Hearing

V. Plaintiffs Motions

.

I

^

Ccdsg- Arrfeariah.cl&lS’c

No hearing, has been set.jn this case and, as previously
noted, Plaintiff is not entitled to a default ludgment. Thus,
the Court will 'deny Plaintiff ^equesTTo" be present at the
hearing.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

I

r

*

95

Caraffa v. Tempe (AZ) Police Department, Slip Copy (2020)

2. Request for Appointment of Counsel

Fed. R. Civ. P. 5(d). Also, Plaintiff must submit an
additional copy of every filing for use by the Court. See
LRCiv 5.4. Failure to comply may result in the filing
being stricken without further notice to Plaintiff.

There is no constitutional right to the appointment of,
counsel in a civil case. See
Ivey v. Bd. of Regents of
~fhe Univ.
as.
>. In
proceedings in forma pauperis, the court may request an
attorney, to. represent. any_ pCTSonunabletoaffordone.
l 28 U.S.C. § 1915(e)(3). Appointment of counsel under
B 28 U.S.C. § 1915(e)(1) is required only when
“exceptional circumstances!’ are present. L Terrell v.
'frewerT935 F.2d 1015^1017 (9th Cir. 1991). A
determination with respect to exceptional circumstances
requires an evaluation of the likelihood of success on the
merits as .well as the ability of Plaintiff'to articulate lm
'claims pro seinjjglfrof'tlie complexity of the legal issue.
~~~ ,JLr '^Nei'ther^t 1these factors is dispositive and
ivolv!
■both must be viewed together before reaching a decision.”
Id. (quoting If Wilborn v. Escalderon, 789 F.2d 1328,
1331 (9th Cir. 1986)).
Having considered both elements, it does not appear at
this time that exceptional circumstances are present that
would require the appointment of counsel in this case.
Plaintiff is in no different position than many pro se
litigants. Thus, the Court will deny without prejudice
Plaintiffs request for the appointment of counsel.

C. Possible Dismissal
If Plaintiff failsjo timely comply with every provision of
this Order, including tHese waminffT^tne1 L.ourt may
^dismissThis actionfvitKout*further' notice". See Bferdik
1260-61 (9th Cir. 1992) (a
district court may dismiss an action for failure to comply
with any order of the Court).
IT IS ORDERED:
*6 (1) Plaintiffs Motion for Seizure of Personal Property
(Doc. 9), Motion for Default Judgment (Doc. 10), and
.ppear and Appointment of Counsel
Motion o:
(Doc. 1$
den
(2) Counts Ongj
the First Amended
Complaint are^lismissed without prejudice?
(3) Defendants City of Tempe Police Department, City of
Tempe MavopjCii
ief of Police, and City of
Tempe a/fTaismissed without prejudices.
(4) Defendant Guajardo must answer Counts Two, Three,
and Five of the First Amended Complaint.
...

VI. Warnings

A. Address Changes
Plaintiff must file and serve a notice of a change of
address in accordance with Rule 83.3(d) of the Local
Rules of Civil Procedure. Plaintiff must not include a
motion for other relief with a notice of change of address.
Failure to comply may result in dismissal of this action.

(5) The Clerk of Court must send Plaintiff a service,
.
ie,r ir:
;ended Complaint (Doc.„12~L
"tins Order, and both summons and request for waiver
iantuu;
(6) Plaintiff must complete and return the service packet
to the Clerk of Court within 21 ,days_ of the_date..of.filing
**^of tms Urder. Yheij'nitedStates Marshal will not provide
1 service of process if Plaintiff fails to comply with this
Order.
*
(7) If Plaintiff does not either obtain a waiver of, service^
of the summons or complete service of the Summons and
First Amended Complaint on Defendant within 90 days of
r;i-------- ^-mplamt Qf W1WU1
or me
oi_ftus_ order,^wnichever is later, the action may be
dismissed. Fed. R. Civ. P. 4(m); LRCiv 16.2(b)(2)(B)(ii).
.,

B. Copies
Plaintiff must serve Defendant, or counsel if an
appearance has been entered, a copy of every document
that he files. Fed. R. Civ. P. 5(a). Each filing must include
a certificate stating that a copy of the filing was served.

I

«

.

|llf I. I —;,jMj — 111

(8) The United States Marshalmust.retainthe Summons,
a copy of tire First. Amended. Complaint..and, a. com^nf
'"drtTOrder'tor futureuse.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

-

f

f

s

Caraffa v. Tempe (AZ) Police Department, Slip Copy (2020)

(9) The United States Marshal must notify Defendant of
the commencement of this action and request waiver of
service of the summons pursuant to Rule 4(d) of the
Federal Rules of Civil Procedure. The notice to Defendant
must include a copy of this Order.
*

(10) If Defendant Guajardo agrees to waive service of the
Summons and First Amended Complaint, he must return
the signed waiver forms to the United States Marshal, not
the Plaintiff, within 30 days of the date of the notice
and request for waiver of service pursuant to Federal
Rule of Civil Procedure 4(d)(1)(F) to avoid being charged .
the cost of personal service.
(11) The Marshal must immediately file signed waivers of
service of the summons. If a waiver of service of
summons is returned as undeliverable or is not returned
by Defendant within 30 days from the date the request for
waiver was sent by the Marshal, the Marshal must:
(a) personally serve copies of the Summons, First
Amended Complaint, and this Order upon Defendant
pursuant to Rule 4(e)(2) of the Federal Rules of Civil
Procedure; and
(b) within 10 days after personal service is effected, file
the return of service for Defendant, along with
evidence of the attempt to secure a waiver of service of
the summons and of the costs subsequently incurred in

effecting service upon Defendant. The costs of service
must be enumerated on the return of service form
(USM-285) and must include the costs incurred by the
Marshal for photocopying additional copies of the
Summons, First Amended Complaint, or this Order and
for preparing new process receipt and return forms
(USM-285), if required. Costs of service will be taxed
against the personally served Defendant pursuant to
Rule 4(d)(2) of the Federal Rules of Civil Procedure,
— unless otherwise ordered by the Q>urt.

V-co-e.r'vv
Coop-t order
'*7 (12) Defendant must answer the relevant portions of
the_First Amended Complaint or1 otherwise' respond^y
appropriate motiQn_lwiiffin me time provided bv_ the^
^applicable provisions^ofjL .Rule_12(a),of the Federal
“■Rules of Civil Procedure.
(13) This matter is referred to Magistrate Judge Eileen SL
Willett pursuant to Rules 72.1 and 72.2 ofthe Local Rules
of Evil Procedure for all pretrial proceedings as
authorized under !H*28 U.S.C. § 636(b)(1).

All Citations
Slip Copy, 2020 WL 919168

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

End of Document

eo

W£STLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

->

Caraffa v. Tempe (AZ) Police Department, Slip Copy (2020)

ofCivilActionanc^Re^gg^^l^|gg^, ^Doc^9^ In his
Motion. Ftafnjifnlippears to take issue witlrthe portion of
the Court's Febma|^>M26-2020 Order ^dismissing the
remaining claims and Defendants. He also seeks to
‘amend’’ two closedcase^no” this case. Q (\J
Motions for recon^^rafmi^^^^nbe^ifte^nly in rare

2020 WL1659892
Only the Westlaw citation is currently available.
United States District Court, D. Arizona.
Alfred E. CARAFFA, Plaintiff,
v.
TEMPE (AZ) POLICE DEPARTMENT, et al.,
Defendants.
No. CV19-05492-PHX-MTL (ESW)

i

Signed 04/03/2020
Attorneys and Law Firms
Alfred E. Caraffa, Phoenix, AZ, pro se.

DC'SrUiiSd Oft.
+ u*o!e(' 'tSiiflW
_

_

VI ^
.1

"circumstances. Defenders of Wildlife v Browner, 909 F.
Supp. 1342, 1351 (D. Ariz. 1995). A motion for
reconsideration is appropriate where the district court “(1) ——^
is presented with newly discovered evidence, (2)
committed clear error or the initial decision was /-*
manifestly unjust, or (3) if there is an intervening change
^
in controlling law.” 1? School Dist. No. 1J, Multnomah ^
County v. ACandS, Inc., 5 F.3d 1255, 1263 (9th Cir. £3
1993). Such motions should not be used for the purpose
of asking a court “ ‘to rethink what the court had already * tA
thought through - rightly or wrongly.’ ” Defenders of v <T
Wildlife, 909 F. Supp. at 1351 {quoting ^Above the Belter 3
Inc. v. Mel Bohannan Roofing, Inc., 99 F.R.D. 99, 101
(E.D. Va. 1983)). A motion for reconsideration “mav not
be used to raise arguments or present evidence for the Fust
^
time when they could reasonably have been raised earlier
in the litigation.”
Kona Enters., Inc. v. Estate of
"BiskopT’lT^T^ 877, 890 (9th Cir. 2000). Nor may a 2
motion for reconsideration repeat any argument ^ ^
previously made in support of or in opposition to a 5* A)
motion. Motorola, Inc. v. J.B. Rodgers Mech.
Contractors, Inc., 215 F.R.D. 581, 586 (D. Ariz. 2003).
Mere disagreement with a previous order is an insufficient J
basis for reconsideration. See Leong v. Hilton Hotels y\
Corp., 689 F. Supp. 1572, 1573 (D. Haw. 1988).

<7 £Z

___

ORDER
Michael T. Liburdi, United States District Judge
*1 On October 24, 2019, Plaintiff Alfred E. Caraffa who ,
was not detained when he filed this lawsuit but is now is
confined in_a_Man^pa County_Jail, filed a pro se civil
rights Complain7pursuant to I? 42 U.S.C. § 1983 and an

The Court has reviewed the First Amended Complaint,
the February 26, 2020 Order, and the Motion. The Court
finds no basis,to reconsider its decision. Thus, to the
extent Plaintiff is seeking reconsideration of the February
26, 2020 Order, the Court will deny Plaintiffs Motion. To
the extent, PlaimrffLiX sedcingT to"consolidate ~_two1
previously,.dismissed, cases with.this case, the Court will
deny, this^portion of.the.. Motion because_it is duplicative
ofPlamtiff^currenUypend^^lQtiontoCombm^C^es^

Application to Proceed In District Court without
Prepaying Fees or Costs. In a December 16, 2019 Order,
the Court granted the Application to Proceed and
dismissed the Complaint because Plaintiff had failed to
state a claim. The Court gave Plaintiff 30 days to file an
amended complaint that cured the deficiencies identified
in the Order.

of Personal Property for Payment Under Default
Judgment, a Motion for Default Judgment, a Motion of
Right to Appear and Appointment of Counsel, and a Fust
Amended Complaint. In a February 2"6~2T)20~Order, the
Court ordered Defendant Guajardo to answer a portion of
'the~First Amended Complaint:, d'
’’claims and Defendants without
: ai
leniei
Plaintiffs pending Motions.

*2 IT IS ORDERED:
(1) The reference to Magistrate Judge Eileen^^jli^^
withdrawn
to the “Motion
for Support
^dR^OpCTasC^e”(Dl
ocTl9!).^‘....
^ of Civil
1 Action
~
(2) Plaintiff’s “Motion for .Support of,.Civi| Action and
Re-Open _Case^(lW. 19) is denied.
1 ~

-4

On March 27, 2020, Plaintiff filed a “Motion for Support
WfiSTLAW © 2021 Thomson Reuters, No claim to orig i nal

l

n

^

~C

^3

Caraffa v. Tempe (AZ) Police Department, Slip Copy (2020)

Eileen S. Willett for disposition as appropriate.

Slip Copy, 2020 WL 1659892

All Citations
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

frJI

JU *

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

*
^ .....
Federal Rules of Civil Procedure (FRCP)
Rule 3. Appeal as of Right-How Taken
(a) Filing the Notice of Appeal.
(1) An appeal permitted by law as of right from a district
court to a court of appeals may be taken only by filing a
notice of appeal with the district clerk within the time
- allowed by Rule 4. At the time_of filing, the_appellant,
must fumish the clerk with.enough_coDies-of-the.notice..
to enable the clerk to comply with Rule 3(d).
(2) An appellant’s failure to take any step other than the
timely filing of a notice of appeal does not affect die
validity of the appeal, but is ground pnly for the court of
appeals to act as it considers appropriate, including *
dismissing the appeal.
->

1

(3) An appeal from a judgment by a magistrate judge in \
a civil case is taken in the_same wav as an appeal from 1
liny dtiieTdistfict court judgment.
J
(4) An appeal by permission under 28 U.S.C. § 1292(b)
or an appeal in a bankruptcy case may be taken only in
the manner prescribed by Rules 5 and 6, respectively.

(b) Joint or Consolidated Appeals.
(1) When two or more parties are entitled to appeal from
a district-court judgment or order, and their interests
make joinder practicable, they may file a joint notice of
appeal. They may then proceed on appeal as a single
appellant.
(2) When the parties have filed separate timely notices
of appeal, the appeals may be joined or consolidated by
the court of appeals.
(c) Contents of the Notice of Appeal.

(3) In a class action, whether or not the class has been
certified, the notice of appeal is sufficient if it names
one person qualified to bring the appeal as
representative of the class.
(4) An appeal must not be dismissed forinfonnalityeOf^
-fon^’orI title"df'tne‘ notic^oi appeal, or for failure to
"waTtrs^rpartv whose intent to appeal is otherwise clear

(5) Form 1 in the Appendix of Forms is a suggested
form of a notice of appeal.
(d) Serving the Notice of Appeal.

__________ ___

(1) The district clerk must serve notice of the filing of a
notice of appeal by sending a copy to each party’s
counsel of record-excluding the appellant’s—or, if a
party is proceeding pro se, to the party’s last known
address. When a defendant in a criminal case appeals,
the clerk must also serve a copy of the notice of appeal
on the defendant. The clerk must promptly send a copy
of the notice of appeal and of the docket entries—and
any later docket entries-to the clerk of the court of
| appeals named in the notice. The district clerk must
I note, on each copy, the date when the notice of appeal
[ was filed. ’
—
~i
I ^ (2) If an inmate confined in an institution files a notice
I
of appeal in the manner provided by Rule 4(c), the
district clerk must also note the date when die clerk
<
v
^
docketed
the notice.
J
(3) The district clerk’s failure to serve notice does not
affect the validity of the appeal. The clerk must note on
the docket the names of die parties to whom the clerk
sends copies, with the date of sendmgTfService is
i ""sufficient deipite the death of a party or the party’s
| counsel.
_____ _____________

(1) The notice of appeal must:
(A) specify the party or parties taking the appeal by
naming each one in the caption or body of the notice,
but an attorney representing more than one party may
describe those parties with such terms as “all
plaintiffs,” “the defendants,” “die plaintiffs A, B, et
al.,” or “all defendants except X”;

(e) Payment of Fees. Upon filing a notice of appeal, the
appellant must pay the district clerk all required fees. The
district clerk receives the appellate docket fee on behalf of
the court of appeals.
Rule 4. Appeal as of Right—When Taken
(a) Appeal in a Civil Case.

(B) designate the judgment, order, or part thereof
being appealed; and

(1) Time for Filing a Notice of Appeal.

(C) name the court to which the appeal is taken.

(A) In a civil case, except as provided in Rules
4(a)(1)(B), 4(a)(4), and 4(c), die notice of appeal
(2) A pro se notice of appeal is considered filed on
required by Rule 3 must be filed with the district clerk
behalf of the signer and the signer’s spouse and minor
within 30 days after entry of the judgment or order
children (if they are parties), unless the notice clearly
appealed from.
indicates otherwise.
gyUlUl rtf Fv/
QOQPJ.
WESTtAW © 2021 Thomson Reuters. No claim to original U.S. Government Wi

s
Federal Rules of Civil Procedure (FRCP)
(B) The notice of appeal may be filed by any party
within 60 days after entiy of the judgment or order
appealed from if one of the parties is:

no later than 28 days after the judgment is entered.
(B)(i) If a party files a notice of appeal after the court
announces or enters a judgment-but before it
disposes of any motion listed in Rule 4(a)(4)(A)-the
notice becomes effective to appeal a judgment or
order, in whole or in part, when the order disposing of
the last such remaining motion is entered.
__

(i) the United States;
(ii) a United States agency;
(iii) a United States officer or employee sued in an
official capacity; or
(iv) a current or former United States officer or if r
employee sued in an individual capacity' for an acf
C
or omission^occurringjn connection with "duties*
jperformed on tE^United"
allinstances^m'wliicir the
__ .
_____
tKat person wRen the judgment or order is entered^
/ •
t
^OTjftles the appeal for that person ~
(C) An appeal from an order granting or denying an
application for a writ of error coram nobis is an
appeal in a civil case for purposes of Rule 4(a).

;s„
W

(2) Filing Before Entry of Judgment. A notice of
appeal filed after the court announces a decision or
order-but before the entry of the judgment or order—is
treated as filed on the date of and after the entry.
(3) Multiple Appeals. If one party timely files a notice
of appeal, any other party may file a notice of appeal
within 14 days after the date when the first notice was
filed, or within the time otherwise prescribed by this
Rule 4(a), whichever period ends later.

>•
•':>
••'•yV
a^

:>
v

(i) for judgment under Rule 50(b);
(ii) to amend or make additional factual findings
under Rule 52(b), whether or not granting the
motion would alter the judgment;
(iii) for attorney’s fees under Rule 54 if the district
court extends the time to appeal under Rule 58;

•:>
■ :r

if

'

(iii) No additional fee is required to file an amended
notice.
(5) Motion for Extension of Time.
(A) The district court may extend the time to file a
notice of appeal if:
(i) a party so moves no later than 30 days after the
time prescribed by this Rule 4(a) expires; and

^
y

(4) Effect of a Motion on a Notice of Appeal.
(A) If a party files in the district court any of the
following motions under the Federal Rules of Civil
Procedure—and does so within the time allowed by
those rules—the time to file an appeal runs for all
parties from the entry of the order disposing of the
last such remaining motion:

(ii) A party intending to challenge an order disposing
of any motion listed in Rule 4(a)(4)(A), or a
judgment’s alteration or amendment upon such a
motion, must file a notice of appeal, or an amended
notice of appeal-in compliance with Rule 3(c)—
within the time prescribed by this Rule measured
from the entry of the order disposing of the last such
remaining motion.

(ii) regardless of whether its motion is filed before
or during die 30 days after the time prescribed by
this Rule 4(a) expires, that party shows excusable
neglect or good cause.
(B) A motion filed before the expiration of the time
prescribed in Rule 4(a)(1) or (3) may be ex parte
unless the court requires otherwise. If the motion is
filed after the expiration of the prescribed time, notice
must be given to the other parties in accordance with
local rules.
(C) No extension under this Rule 4(a)(5) may exceed
30 days after the prescribed time or 14 days after the
date when the order granting die motion is entered,
whichever is later.
(6) Reopening the Time to File an Appeal. The district
court may reopen the time to file an appeal for a period
of 14 days after the date when its order to reopen is
entered, but only if all the following conditions are
satisfied:

(v) for a new trial under Rule 59; or

(A) the court finds that the moving party did not
receive notice under Federal Rule of Civil Procedure
77(d) of the entry of the judgment or order sought to
be appealed within 21 days after entry;

(vi) for relief under Rule 60 if the motion is filed

(B) the motion is filed within 180 days after the

(iv) to alter or amend the judgment under Rule 59;

WESTIAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

1

¥

'Federal Rules of Civil Procedure (FRCP)
judgment or order is entered or within 14 days after
the moving party receives notice under Federal Rule
of Civil Procedure 77(d) of the entry, whichever is
earlier; and

(2) Filing Before Entry of Judgment. A notice of
appeal filed after the court announces a decision,
sentence, or order—but before the entry of the judgment
or order-is treated as filed on the date of and after die
entry.

(C) the court finds that no party would be prejudiced.
(7) Entry Defined.
(A) A judgment or order is entered for purposes of
this Rule 4(a):
(i) if Federal Rule of Civil Procedure 58(a) does
not require a separate document, when the
judgment or order is entered in the civil docket
under Federal Rule of Civil Procedure 79(a); or
(ii) if Federal Rule of Civil Procedure 58(a)
requires a separate document, when the judgment
or order is entered in the civil docket under Federal
Rule of Civil Procedure 79(a) and when the earlier
of these events occurs:
• the judgment or order is set forth on a separate
document, or
• 150 days have run from entry of the judgment
or order in the civil docket under Federal Rule of
Civil Procedure 79(a)._____
(B) A failure to set forth a judgment or order on a
separate document when requirecTby Federal Rule of
"CivilTfgErdufe'58(araoes not affect SevaEditV| of
an appeal from that judgment or order.
(b) Appeal in a CriminaFCaSeT
(1) Time for Filing a Notice of Appeal.
(A) In a criminal case, a defendant’s notice of appeal
must be filed in the district court within 14 days after
the later of:

0)

the entry of either the judgment or the
order being appealed; or

(ii) the filing of the government’s notice of appeal.
(B) When the government is entitled to appeal, its
notice of appeal must be filed in the district court
within 30 days after the later of:
(i) die entry of the judgment or order being
appealed; or
(ii) the filing of a notice of appeal by any
defendant.

Q

(3) Effect of a Motion onaNotice of Appeal.

SO
s)
SJ
—

i
0

-r
* **
-^

>c

(A) If a defendant timely makes any of the following
motions under the Federal Rules of Criminal
Procedure, the notice of appeal from a judgment of
conviction must be filed within 14 days after the entry
of the order disposing of die last such remaining
motion, or within 14 days after the entry of the
judgment of conviction, whichever period ends later.
This provision applies to a timely motion:
(i) for judgment of acquittal under Rule 29;
(ii) for a new trial under Rule 33, but if based on
newly discovered evidence, only if the motion is
made no later than 14 days after the entry of the
judgment; or
(iii) for arrest of judgment under Rule 34.
(B) A notice of appeal filed after the court announces
a decision, sentence, or order—but before it disposes
of any of the motions referred to in Rule 4(b)(3)(A)becomes effective upon the later of the following:
(i) the entry of the order disposing of the last such
remaining motion; or
(ii) the entry of die judgment of conviction.
(C) A valid notice of appeal is effective-without
amendment—to appeal from an order disposing of any
of the motions referred to in Rule 4(b)(3)(A).
(4) Motion for Extension of Time. Upon a finding of
excusable neglect or good cause, the district court maybefore or after the time has expired, with or without
motion and notice—extend the time to file a notice of
appeal for a period not to exceed 30 days from the
expiration of the time otherwise prescribed by this Rule
4(b).
(5) Jurisdiction. The filing of a notice, of appeal under ... .
this Rule 4(b) does not divest a district court of
jurisdiction to correct a sentence under Federal Rule of
Criminal Procedure 35(a), nor does the filing of a
motion under 35(a) affect the validity of a notice of
appeal filed before entry of the order disposing of the
motion. The filing of a motion under Federal Rule of
Criminal Procedure 35(a) does not suspend the time for

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

f

s
Federal Rules of Civil Procedure (FRCP)*
filing a notice of appeal from a judgment of conviction.

filed with the clerk.

(6) Entry Defined. A judgment or order is entered for
purposes of this Rule 4(b) when it is entered on the
criminal docket

(2) Filing: Method and Timeliness.
(A) Nonelectronic Filing.

(c) Appeal by an Inmate Confined in an Institution.

(i) In General. For a paper not filed electronically,
filing may_be_accompIished,bv.maitad'dresse_d_tp
the_clerk, but tiling is not timely unlessJhe.clerk
receives the papers within the time fixed for filing.

(1) If an institution has a $j&iem_designed for legal mail,
an inmate confined there must use that system to receive^

"the benefit df^thirRul^^nnrarTmmVte^lesT
notice of appeaHn either a civil^^Truninal^ase, the^
notice is timely if it is deposited in the institution’s
jntemal mail svstem_on_or before the las "day*for^lmg
and:
(A) it is accompanied by:
(i) a declaration in compliance with 28 U.S.C. §
1746-or a notarized statement-setting out the date
of deposit and stating that first-class postage is
being prepaid; or
(ii) evidence (such as a postmark or date stamp)
showing that the notice was so deposited and that
postage was prepaid; or
(B) the court of appeals exercises its discretion to
permit the later filing of a declaration or notarized
statement that satisfies Rule 4(c)(l)(A)(i).
(2) If an inmate files the first notice of appeal in a civil
case under this Rule 4(c), the 14-day period provided in
Rule 4(a)(3) for another party to file a notice of appeal
runs from the date when the district court dockets the
first notice.
___

a

O

O
u
~o
W

1)
—

~JSL

>
(3)_When a defendant in a criminal case files a notice of t >
appeal under tfiiTKule~4(c), the 30-day~peridd"for"he \tv
government to file its notice_of_appeal runs from the
Jenfry-of the-judgment-or order appealed from or from"
the district coim’^sjiocketing.of the defemiant’s'noticVoi
appeal, whichever is later.
~
""
(d) Mistaken Filing in the Court of Appeals. If a notice
of appeal in either a civil or a criminal case is mistakenly
filed in the court of appeals, the clerk of that court must
note on the notice the date when it was received and send
it to the district clerk. The notice is then considered filed in
the district court on the date so noted.
Rule 25. Filing and Service
(a) Filing.
(1) JFiling with the Clerk. A paper required
permitted' to" be"fi led^in^a* oifrt^f appeT^-™-^

(ii) A Brief or Appendix. A brief or appendix not
filed electronically is timely^filed.1 howeverTif on or
before the last dayTor filing, it is: ",""B
• mailed togth^ clerk by first-class mail, or other
class of mail that is_at _ feast^^expeditiouSw
postage prepaid; or
• dispatched to a third-party commercial, carrier
foTcielivery tottieclerkwithin3 days.
(iii) Inmate Filing. If an institution has a system,
designed, for, legal mail, an inmate confined^tiTere"
must usejhat system to receive ttiecblnefifof,this_
SnIe^25(a)(2)(A)(iii). ^Aa|[ paper—mot^filedt
electronically^ by an inmate _ is_ timely^ if_it_is_
Ldegosited in the institution's,intemal_mail_system
on or before thelast dayjfor filing and;
• it is accompanied by: a declaration in
compliance with 28 U.S.C. § 1746—or a
notarized statement-setting out the date of
deposit and stating that first-class postage is
being prepaid; or evidence (such as a postmark
or date stamp) showing that the paper was so
deposited and that postage was prepaid; or
• the court of appeals exercises its discretion to
permit the later filing of a declaration or
notarized statement that satisfies . Rule
2 5 (a)(2)(A)(iii).
(B) Electronic Filing and Signing.
(i) By a Represented Person—Generally
Required; Exceptions. A person represented by an
attorney must
file electronically,
unless
nonelectronic filing is allowed by the court for
good cause or is allowed or required by local rule.
(ii) By an Unrepresented.Ren^n-When Allowed—
or Required. A person not represented by an
Attorney;,
v
"
• may file electronically only if allowed bv courts
order or by local rule; and

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

V

■;

7 '.
Federal Rules of Civil Procedure (FRCP)
served consented to in writing.

• may be required to file, electronically only by^
court order; ” tiy a local^ule^thlt^includes
reasonable exceptions.

(3) When reasonable considering such factors as die
immediacy of the relief sought, distance, and cost,
service on a party must be by a manner at least as
expeditious as the manner used to file the paper with the
court.

(iii) Signing. A filing made through a person’s
electronic-filing account and authorized by that
person, together with that person’s name on a
- signature block, constitutes the person’s signature.
(iv) Same as a Written Paper. _A_paper_filed
electronically is a written paper for_purp_osesIof I a
thesyules^
Vr 9
(3) Filing a Motion with a Judge. If a motion requests
relief that may be granted by a single judge, the judge
may permit the motion to be filed with the judge; the
judge must note the filing date on the motion and give it
to the clerk.
(4) Clerk’s Refusal of Documents. The clerk must not
refuse to accept for filing any paper presentecfWfhat
” purpose'soleiy'because it iiTnot presenfedin proper form
practice.

0

Q (d) Proof of Service.
w

0

i

“tJ

(5) Privacy Protection. An appeal in a case whose
privacy protection was governed by Federal Rule of
^
Bankruptcy Procedure 9037, Federal Rule, of Civil Qj
Procedure 5.2, or Federal,Rule of Criminal Procedure
”49.1 is governed by the same rule on appeal. In all other
proceedings,privacy protection is governed by Federal
*Rule~of^iviM^aSedi^$!27except. that FederaPKulerpf
^Criminal Procedure_49. Lgovems when an_extraordinary
writ is sought in a criminal case.

-t

IS

(b) Service of All Papers Required. Unless a__rule. ’T\r
requires service by the clerk, a party must, at or before the
"■tuheof^filmg a paper, serve a copy ontlie other parties to
the appeal or review. Service on a party represented by ^
counsel must be made on the party’s counsel.
(c) Manner of Service.
(1) Nonelectronic service may be any of the following:
(A) personal, including delivery to a responsible
person at the office of counsel;
(B) by mail; or
(C) by third-party commercial carrier for delivery
within 3 days.
(2) Electronic service of a paper may be made (A) by
sending it to a registered user by filing it with the
court’s electronic-filing system or (B) by sending it
by other electronic means that the person to be

(4) Service by mail or by commercial carrier is complete
on mailing or delivery to the carrier. Service by
electronic means is complete on filing or sending, unless
the party making service is notified that the paper was
not received by the party served.

(1) A paper presented for filing must contain either of
the following if it was served other than through the
court’s electronic-filing system:
(A) an acknowledgment of service by the person
served; or
(B) proof of service consisting of a statement by the
person who'made service certifying:
(i) the date and manner of service; __
(ii) the names of the persons served; and
(iii) their mail or electronic.addresses^facsimile^
numbefgTortl^addresses-of the-places_of delivery^
as appropriate for the manner of service.
(2) When a brief or appendix js^ filed p by mailing or
dispatchJirLacbordance.with.Ruie^SCaX^XAjCiij^tl^
proof of service, must algo-state the date.and manner by
whiciTthT'document was mailed or dispatched to the

JcLak^
(3) Proof of service may appear on or be affixed to the
papers filed.
(e) Number of Copies. When these rules require the filing
or furnishing of a number of copies, a court may require a
different number by local rule or by order in a particular
case.
Rule 32. Form of Briefs, Appendices, and Other
Papers
(a) Form of a Brief.
(1) Reproduction.
(A) A brief may be reproduced by any process that
yields a clear black image on light paper. The

WESTIAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

▼

Federal Rules of Civil Procedure (FRCP)
paper must be opaque and unglazed. Only one
side of the paper may be used.
(B) Text must be reproduced with a clarity that equals
or exceeds the output of a laser printer.
(C) Photographs, illustrations, and tables may be
reproduced by any method that results in a good copy
of the original; a glossy finish "is acceptable if the
original is glossy.
(2) Cover. Except for filings by unrepresented parties,
the cover of the appellant’s brief must be blue; the
appellee’s, red; an intervenor’s or amicus curiae’s,
green; any reply brief, gray; and any supplemental brief,
tan. The front cover of a brief must contain:

(6) Type Styles. A brief must be set in a plain, roman
style, although italics or boldface may be used for
emphasis. Case names must be italicized or underlined.
(7) Length.
(A) Page Limitation. A principal brief may not
exceed 30 pages, or a reply brief 15 pages, unless it
complies with Rule 32(a)(7)(B).
_
_
(B) Type-Volume Limitation.
(i) A principal brief is acceptable if it:
• contains no more than 13,000 words; or
• uses a monospaced face and contains no more
than 1,300 lines of text.

(A) the number of the case centered at the top;
(B) the name of the court;

(ii) A reply brief is acceptable if it contains no
more than half of the type volume specified in Rule
32(a)(7)(B)(i).

(C) the title of the case (see Rule 12(a));
(D) the nature of the proceeding (e.g., Appeal,
Petition for Review) and the name of the court,
agency, or board below;
(E) the title of the brief, identifying the party or
parties for whom the brief is filed; and
(F) the name, office address, and telephone number of
counsel representing the party for whom the brief is
filed.
(3) Binding. The brief must be bound in any manner
that is secure, does not obscure the text, and permits the
brief to lie reasonably flat when open.
(4) Paper Size, Line Spacing, and Margins. The brief
must be on 8 14 by 11 inch paper. The text must be
double-spaced, but quotations more than two lines long
may be indented and single-spaced. Headings and
footnotes may be single-spaced. Margins must be at
least one inch on all four sides. Page numbers may be
placed in die margins, but no text may appear there.
(5) Typeface. Either a proportionally spaced or a
monospaced face may be used.
(A) A proportionally spaced face must include serifs,
but sans-serif type may be used in headings and
captions. A proportionally spaced face must be 14point or larger.
(B) A monospaced face may not contain more than 10
!4 characters per inch.

(b) Form of an Appendix. An appendix must comply
with Rule 32(a)(1), (2), (3), and (4), with the following
exceptions:
(1) The cover of a separately bound appendix must be
white.
(2) An appendix may include a legible photocopy of any
document found in the record or of a printed judicial or
agency decision.
(3) When necessary to facilitate inclusion of odd-sized
documents such as technical drawings, an appendix may
be a size other than 8 14 by 11 inches, and need not lie
reasonably flat when opened.
(c) Form of Other Papers.
(1) Motion. The form of a motion is governed by Rule
27(d).
(2) Other Papers. Any other paper, including a petition
for panel rehearing and a petition for hearing or
rehearing en banc, and any response to such a petition,
must be reproduced in the manner prescribed by Rule
32(a), with the following exceptions:
.. (A).A cover is not necessary if the caption and",
signature page of the paper together contain the
information required by Rule 32(a)(2). If a cover is
used, it must be white.
(B) Rule 32(a)(7) does not apply.
(d) Signature. Every brief, motion, or other paper filed

WSSTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

X/

Federal Rules of Civil Procedure (FRCP)
with the court must be signed by the party filing the paper
or, if the party is represented by one of the party’s
attorneys.
(e) Local Variation. Every court of appeals must accept
documents that comply with the form requirements of this
rule and die length limits set by these rules. By local rule
or order in a particular case, a court of appeals may accept
documents that do not meet all the form requirements of
this rule or the length limits set by these rules.
(f) Items Excluded from Length. In computing any
length limit, headings, footnotes, and quotations count
toward the limit but the following items do not:
• cover page;

(g) Certificate of Compliance.
(1) Briefs and Papers That Require a Certificate. A
brief submitted under Rules 28.1(e)(2), 29(b)(4), or
32(a)(7)(B)-and a paper submitted under Rules 5(c)(1),
21(d)(1), 27(d)(2)(A), 27(d)(2)(C), 35(b)(2)(A), or
40(b)(1)—must include a certificate by the attorney, or
an unrepresented party,.that the document complies with
the type-volume limitation. The person preparing the
certificate may rely on the word or line count of the
word-processing system used to prepare the document.
The certificate must state the number of words—or the
number of lines of monospaced type-in the document.
(2) Acceptable Form. Form 6 in the Appendix of
Forms meets the requirements for a certificate of
compliance.

• disclosure statement;
• table of contents;
• table of citations;
• statement regarding oral argument;
• addendum containing statutes, rules, or regulations;
• certificate of counsel;

S.vUlVfV- of
& ^

Oooo 6

♦ signature block;
• proof of service; and
• any item specifically excluded by these rules or by
local rule.

WESTtAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Case 2:19-cv-05492-MTL-ESW Document 34 Filed 03/03/21 Page 1 of 1

1
2
3
4
5
i

6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

Alfred E Caraffa,

10
11

v.

12

Tempe Police Department, et al.,

13
i

Plaintiff,

No. CV-19-05492-PHX-MTL (ESW)
ORDER

Defendants.

14
15
16

On April 23, 2020, pursuant to Plaintiffs Notice of Voluntary Dismissal (Doc.

17

24), the Court terminated this action. (Doc. 25). Plaintiff filed a Notice of Appeal in the

18

Ninth Circuit Court of Appeals. (Docs. 26-28). The Ninth Circuit dismissed the appeal

19

for lack of jurisdiction. (Docs. 29-30). Therefore,

20

IT IS ORDERED denying Plaintiffs “Motion to Proceed to Trial” (Doc. 33).

21

Dated this 3rd day of March, 2021.

22
23
24
25
26
27
28

Honorable Eileen S. Willett
United States Magistrate Judge

